D

t\Q
No.

- (S&l

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE BARBARA J. RILEY,
Petitioner,
v.

ON PETITION FOR A WRIT OF MANDAMUS AND/OR PROHIBmON
PETITIONER’S VERIFIED PETITION FOR A WRIT OF
MANDAMUS AND/OR PROHIBITION

FILED
APR 2 1 2021
Barbara J. Riley
Pro Se, Petitioner
Post Office Box 7313
Jacksonville, FL 32238-0313
Phone: (904) 316-3698
Fee Paid, Non PLRA

April 20, 2021

RECESVED
APR 2 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED
1. Is it constitutional for multiple units of Local government and State government to
enter, sell, buy, and record facially void ex parte default judgments with bills of costs
citywide in never-commenced cases?
2. Is it constitutional for multiple units of Local and State government to execute
purchased-void ex parte default judgments at gun point citywide in never-commenced
cases?
3. Is it constitutional for units of Local and State government to tamper with court docket
sheets to show commencement of never-commenced cases?
4. Is it constitutional for units of Local government and State government to file and
record facially void ex parte default judgments in official records citywide for nevercommenced cases?
5. Is it constitutional for units of Local government to create their own counterfeit titles
citywide using their purchased void ex parte default judgments sold citywide in nevercommenced cases?
6. Is it constitutional for units of Local government and State government to hire, train
and retain void ex-parte-default-judgments traffickers, property thieves and other
racketeer employees citywide?

l

Table of Contents
Questions Presented

1

Is it constitutional for multiple units of Local government and State government
to enter, sell, buy, and record facially void ex parte default judgments with bills
of costs citywide in never-commenced cases?
Table of Contents

.. n

Table of Authorities___

Ul

Parties list

.v

Corporate Disclosure Statement

v

Statement of Jurisdiction

1

Statement of the Case

2

Prayer; Relief Sought

9

Verification of Petitioner

13

n

Table of Authorities
*See, Pages 34 to 38 of Petitioner’s Mandamus/Prohihition Writ
Appendix for Constitution provisions and Statutes verbatim
U.S. Constitution, Amendments
First

10, 12

Fifth

3,10,12

Thirteenth

2, 12

Fourteenth

2, 10
Florida Constitution, Article I

Section 2

3, 10

Section 5

3,10

Section 9

3, 10

Section 21

3, 10

Section 22

3,10
Statutes
12

Judiciary Act of 1789

3,4

18 U.S.C. 241
28 HSC- § 1651(a)

1

28 U.S.C. § 2104

1

28 U.S.C. § 2403(b)

1

42 U-S-C. § 1981

3

42 U.S. C. § 1982

3, 4, 10

iii

Table of Authorities (cont’d)
Statutes (cont’d)
42 U.S.C. § 1983

3

42 U.S.C. § 1985(3)

3

UJS. Supreme Court Killings
12

Felder v. Casey, 487 U.S. 131 ( 1988)
Miranda v. Arizona, 384 U.S. 486 (1966)
Norton v. Shelby County, 118 UJS. 425 (1886)
Owen v. City of Independence, 445 U.S. 622 (1980)
U.S. v. Throckmorton, 98 U.S. 64 (1878)
United States v. Kis, 455 U.S. 1018 (1982)

3

3, 5,7
12
3, 5, 7
3,7

U.S. Supreme Court Rules
1

Rule 20

2

Rule 29.4(c)

*See, Pages 34 to 38 of Petitioner’s Mandamus/Prohibition Writ Appendix for
Constitution provisions and Statutes verbatim

IV

PARTIES LIST AND CORPORATE DISCLOSURE STATEMENT
PARTIES LIST
1. Barbara J. Riley, Petitioner, pro se, non-lawyer, pauper, innocent black
adult disabled senior citizen of the United States and of the State of Florida,
residing'in Jacksonville, Duval County, Florida. Petitioner owns inherited
mortgage-free homestead-commercial real estate income property in
Brooklyn, Rings County, New Yor; Lot 0001 situate in Block 1223; 4-Family
unit Apartment Building with F.M.V. of $1,200,000.00 in 2012; F.M.Y.
$1,778,755.00 in April 2021.
2. City of New York, Defendant, who imposes Badges and Incidents of
Slavery upon black Americans amd their children and families and tenants in
State courts and out of State courts under color of some New York State law
for nearly 2 generations (that can be proven).
CORPORATE DISCLOSURE STATEMENT
Pro Se Petitioner Barbara J. Riley has no financial interests in any corporate
entity and is not affiliated with any corporate entity due to local and State
and federal government pauperism citywide and nationwide.

v

VERIFIED PETITION FOR AJWRIT OF MANDAMUS/PROHIBITION
WITH WRITTEN STATUTORY EVIDENCES IN SUPPORT
STATEMENT OF JURISDICTION
The Court has jurisdiction as a matter of discretion pursuant to 28 U.S.C.
§ 1651(a) and Rule 20 of the U.S. Supreme Court Rules, not as a matter of
right, but as a matter of emergency circumstances and as a matter of
exceptionally great public importance citywide. This action is authorized
under 28 U.S.C. §§ 1651 and 2104. And 28 U.S.C. § 2403(b) may apply.
The date of the facially void ex parte New York State Brooklyn Supreme
Court Justice’s LARRY D. MARTIN personal proposed class-action Judgment
sold and unconstitutionally entered, sealed and recorded without
commencement, summonses, a pleading, personal jurisdiction and subjectmatter jurisdiction being on the record of their never-commenced class-action
case NYC Reserved Index No. 8700-2007 not commenced with the NYC
County Clerk NANCY T. SUNSHINE in a State court is October 26, 2011;
and the date of the facially void ex parte NYS Second Department of Appeals
sold and unconstitutionally affirming the NYS Brooklyn Justice’s facially
void sold ex parte justice’s personal proposed class-action judgment is June 7,
2013. Both to be Reviewed on this Verified Petition For A Writ of

On April ^-1 . 2021 a true copy of the Verified Petition for A Writ of
Mandamus/Prohibition and Petitioner’s Mandamus/Prohibition Writ
Appendix were Mailed and served through- the U.S.P.S. Postal Service

1

Priority Mail Express® to both the New York State Attorney General, Attn:
Managing Attorney’s Office/Personal Service; and the racketeer NYC Law
Department, 100 Church Street, New York, NY 10007, attorneys for
respondents) Mayor and the City of New York pursuant to U.S. Supreme
Court Rule 29.4(c).
Petitioner’s Proof of Service, dated Annul 2-1 .2021 is enclosed along with
her $300.00 U.S.P.S. Money Order payment and a Self-Addressed Stamped
Envelope.
STATEMENT OF THE CASE
WITH WRITTEN EVIDENCES OF CITYWIDE RAFFICKJNG IN VOID
NYS JUSTICES’ DEFAULT JUDGMENTS AND CITYWIDE VIOLATIONS
OF FIFTH. THIRTEENTH AND FOURTEENTH AMENDMENT RIGHTS
See. Petitioner’s Mandamus/Prohibition Writ Appendix for
Evidences, Pages 1 to 39.
INTRODUCTION
1. The New York City Law Department, the Mayors of New York City and
the Bronx, Kings (Brooklyn), New York, Queens and Richmond Counties NYS
Justices in conspiracy with multiple units of armed and unarmed Local and
State governments, jointly and severally, enjoy a long citywide history of,
stretching out over a period of over four (4) decades, violating clearly
established constitutional rights, inalienable rights, equal rights and
property rights of dead or alive black homeowners, federal and State criminal
statutes, Acts of U.S. Congress, Remedies and Procedure by U.S. Congress,
and Rulings of the Supreme Court of the United States. Fifth, 13th and

2

14th. Amendments. Article I §§ 2, 5, 9, 21 and 22 of Florida Constitution.
2. For the last 45 years, the NYC Law Department thinks they are above the
law and can traffick in void orders in never-commenced cases whenever they
want in the name of the City of New York...... And that black elderly NYC
homeowners, dead or alive, and their heirs, dead or alive, have no alienable
rights, constitutional rights, rights given by U.S. Congress or rights given by
this Court. 18 U.S.C. § 241, 42 U.S.C. §§ 1981, 1982, 1983, 1985((3); Norton
v. Shelby County, U S . v. Throckmorton and United States v. Kis.
3. Because at all times their employer, the Mayors and the City of New York,
have all the rights in Never-commenced cases in the Bronx, (Kings) Brooklyn,
New York (Manhattan), Queens and Richmond counties that are owned,
controlled, and directed by the NYS Justices and the NYC Law Department,
at all times for the last 45 years. In Miranda v. Arizona, this Court holds
“where rights secured by the constitution are involved there can be no rule
making or legislation which would abrogate them.”
THE FACTS
That since May 18. 1976 and ongoing, the illicit NYC Law Department
along with New York State Justices and numerous other co-conspirators,
repeatedly, enter, sell, buy, and record never-served facially void ex parte default
judgments of non-existent tax-liens foreclosures with attorneys bills erf costs in nevercommenced cases. For over 45 years, the Mayors Take black-owned mortgage-free
prime NYC real estate homesteads-income properties and Deeds to give-away only to
certain White tax-exempt criminal organizations to further segregate the City of New
3

York citywide, to create tens of millions of dollars in NYC Mortgage Loans citywide on
the stolen black-owned multi-unit Apartment buildings and then designate each stolen
real properties as Landmarks. This is for the sole benefit of the City of New York to
forever maintain financial interests, ownerships, rights, possessions and control of the
stolen black-owned mortgage-free tax-lien-free real properties, either directly or in­
directly. 18U.S.C. §241. 42U.S.C. § 1982.
PETITIONER’S WRITTEN EVIDENCES
See, PAGES of Petitioner’s Mandamus/Prohibition Writ Appendix as follows.
2. Page 8. Rings County Clerk’s Office Docket Sheet of Never-Commenced on
February 23, 2007 Brooklyn Class-Action No. 51, NYC Index No. 8700-2007.
2. Pages 9-11. Kings County Online Docket Sheets of NYC NeverCommenced by NYC Law Dept. Brooklyn Class-Action No. 51 NYC Index No.
8700-2007.
3, Page 12. Nmmmhpr 2013. illicit NYC Law Dept., completely dishonest
Assistant Corporation Counsel, MINDY R. KOENIG-BERMAN falsely
asserts that Brooklyn In Rem Tax Foreclosure Action No. 51 was Filed or
Commenced February 23. 2007.... The Last Day to Redeem any of the 33
Properties was Mav 25. 2007...... The Last Day to File an Answer was June
14. 2007. NYS Justice Martin completely accepted all of her lies because
Martin had previously sold his facially void default judgment to treasonist
NYC Chief Corporation Counsel, MICHAEL A. CARDOZO, 2 years earlier,
October 26. 2011 and Martin was not vacating it because he would have to

4

Sii.

give back all of that unreported tax-free cash money and this was not
happening. U.S. v. Throckmorton. Norton v. Shelby County.
Petitioner’s June 14.2012 Opposed Order To Show Cause was denied on
paper only by treasonist NYS Justice Martin February 08, 2013. See, Page
10 of Petitioner’s Mandamus/Prohibition Writ Appendix.
4. Page 13. Partial List of Brooklyn 59 Never-Commenced NYC Class-Action
Index Numbers from 8700-1976 to 8700-2015 with 59 Brooklyn Void ex parte
default judgments, including never-commenced Tax Action No. 51 Index No.
8700-2007 against 33 black homeowners and their children and families and
black tenants.
The Brooklyn/Kings’ 59 Void Defaults do not include the Voids in the
other 4 NYC Boroughs; Bronx, Manhattan (New York), Queens and Staten
Island. As different NYC Reserved In Rem Tax Proceedings index numbers
are used for each different NYC Borough, Petitioner not able to find the other
Void Default Judgments of the other 4 Boroughs. But they do exist.
Evidently, from 1976 to 1987, the NYC LAW DEPARTMENT or the NYC
COMISSIONER OF FINANCE himself failed to LIST many prohibited In Rem Tax
Actions taken by them. Although “Void Default Judgments” were Filed and Recorded
against thousands of black home owners, or unwritten “Void Default Judgments were
not filed at all (only the Words “Judgment Entered” on such and such Date, were used
exclusively for several decades on most Recorded documents, Recorded directly, through
the 5 Counties’ NYC OFFICE OF THE CITY REGISTER that is owned, operated,
directed and controlled by appointed officials of the City of New York.

5

8. Papes 16-27 & Pages 28-29. on December 19,2011 NYC Law Dept.
Piled Brooklyn NYS Justice LARRY D. MARTIN sold Void “Ex Parte and
Urgent” “Proposed Judgment Of Foreclosure Pursuant To Administrative
Code §§ 11-412 And 11-412.1” of Never-Commenced Brooklyn In Rem Action
No. 51 Taking 33 black-owned real estate Homesteads-Income Properties and
33 Titles/Deeds which was Recorded, 55 days later, under City Register
CRFN: 2011000439903 Judgment. There were no commencement, petition,
notice or opportunity to be heard and nearly 200 unconstitutional Evictions
at gun point with threats of arrests which were not recorded in their false
and falsified official records. U.S. v. Throckmorton. Norton v. Shelby County.
This is one of the reasons for the vast majority of black homelessness in NYC.
9. Pages 28-29. NYC Department of Finance, Brooklyn Office of the City
Register Land Record of Petitioner’s Property; Block 1223, Lot 0001
CRFN: 2011000300745 DEED: clearly shows No Year 2005-Delinquent &
Unpaid Tax Liens at all on February 23, 2007. NYC and the Mayors never
held or owned any Tax Lien against Petitioner’s mortgage-free tax-lien-free
Property at Block 1223 Lot 0001 or the other 32 real estate properties which
are involved in Never-commenced class-Action No. 51.
A PATTERN OF BUYING FACIALLY VOID DEFAULT JUDGMENTS IN
OBSOLETE NEVER-COMMENCED NEVER-LISTED NO-TAX LIENS
CASES CITYWIDE. IN ALL FIVE NYC BOROUGHS, SINCE 1976
1. Pages 30-32 and Page 13; on December 9.1985. without commencement
of obsolete stale Index 8700-1981. without a 2-year delinquent and unpaid

7

tax lien held by the City of New York, illicit NYC Commissioner of Finance,
PAUL A CROTTY, created, filed and recorded 154 Counterfeit Deeds,
including, Taking Petitioner’s real property; Block 1223.. Lot 0001. See.
also, Page 28 at December 9, 1985.
2. Page 33. July 8.1986. 7 months later, good Brooklyn NYS Justice H.
FREDERICK MEYERSON & illicit PAUL A CROTTY filed and Recorded a
Vacate Order in Never-commenced Not listed stale Index 8700-1981 as to 30
of the 154 Deeds_of stolen real properties, including Petitioner’s Block 1223
Lot 0001. See, also, Page 13 LIST and Page 28 Petitioner’s Block 1223 Lot
0001 Land Records at July 8,1986.
3. In February 2017. ten years after the fact, during litigation in the United
States District Court For the Florida Middle District # 3:16-CV-961 (MMHMCR), Riley v. Cardozo, et al, Assistant NYS Attorney General, ALISSA
S. WRIGHT, attempted to tamper with Never-commenced Index No. 87002007 Docket Sheets to show commencement on February 23.2007.
Ms. Wright, or her accomplice, attempted to insert new court documents
into a never-commenced obsolete-stale case for the CITY OF NEW YORK.
.... But the computers at the NYS UNIFIED COURT SYSTEM prohibited
her fraudulent acts. So, Wright stopped, but she left the practice letter
document by NYS Justice Martin in there anyway to the Left side of the
Words “LIST OF DELINQUENT TAXES” of the updated in-person Clerk’s
Office docket sheets.

8

13. Evidently, their fraud upon the courts and fraud on black home owners
dead and alive, and their Property Thefts are very creative and never-ending
for 45 years and they are still At-large...... They are too dangerous to be free.
Based on the foregoing, Petitioner’s Mandamus/Prohibition Writ
Appendix, and Appendix Authorities cited verbatim Pages 34-38. Petitioners
Verified Petition For A Writ of Mandamus and or Prohibition must be
granted in its entirety, as a matter of great public importance for Petitioner
and 32 other NYC elderly black disabled home owners citywide and their
statutory heirs citywide and nationwide. United States v. Kis.
WHEREFORE, Petitioner, respectfully, prays that this Court enters an
Order:
A, Granting Petitioner’s Verified Petition For A Writ of Mandamus and or
Prohibition in its entirety. United States v. Eds.
B. Vacating the purchased Void Proposed Class-Action Default Judgment of
non-existent 33 Tax-liens Foreclosures of Brooklyn Rings County Supreme
Court Justice LARRY D. MARTIN with damages to each of the 33 black
home owners, including Petitioner Riley, who suffered losses and continues to
suffer losses of four monthly rentals income of $10,000.00 per month and
loss of home equity in her inherited real estate property; 4-family apartment
building; Brooklyn.Block 1223 Lot 0001; for over ten (10) years now. See.
Petitioner’s Mandamus/Prohibition Writ Appendix at Pages 1 to 5 and
Pages 16 to 27.

9

C. Issue an Order directing respondent as follows:
1- To diligently search for, Locate and Identify 33 Black class-action
members and or their surviving statutoiy heirs, including Petitioner Riley,
whose homesteads-income properties and personal property rights had been
so wrongfully Taken, without due process, under Never-commenced NYC
Reserved Index No. 8700-2007. NYC Brooklyn In Rem Tax Foreclosures
Class-Action No. 51 as Filed/Recorded on 12/19/2011 under NYC Brooklyn
Office of the City Register CRFN; 2011000439903 DEFAULT JUDGMENT.
2. Return any and all real estate homesteads-income properties so
wrongfully Taken to the rightful Black home owners, including Petitioner’s
Riley Brooklyn: Block 1223 Lot 0001, and or to their surviving statutory
heirs. 42 U.S.C. § 1982. Article I §§ 2, 5, 9, 21, 22 of Florida Constitution.
3. Remove all 12 liens, deeds, clouds or incumbrances filed and recorded
against the said 33 real estate homesteads-income properties without any
further fraud, sales, denial or delay, including but not limited to, void default
JUDGMENT CRFN: 2011000439903: $2.971.424.00 void NYC Mortgage
Loan CRFN: 20160000689Q1 and $8.817.736.00 void NYC Mortgage Loan
CRFN: 2016000068902. See, Pages 28 and 29 of Petitioner’s Appendix, for
list of all 12 void Liens, Deeds, default Judgment, NYC Mortgage Loans and
other incumbrances.
D. Enjoining respondent as follows:
1. To refrain from placing badges and incidents of slavery upon free black

10

home owners and black citizens citywide every day.
2. To refrain from usage of Trafficking In facially void ex parte justice’s
personal proposed class-action default judgments of non-existent tax-liens
foreclosures dtywide for money in Never-commenced City Reserved Index
numbers/Cases not commenced in NYC New York State Supreme Courts.
3. To refrain from unconstitutionally evicting black homeowners and
their children and families and friends and black tenants with strong hand at
gun point without valid eviction orders citywide.
4. To refrain from stealing homesteads-commercial real estate properties
from legal black home owners and their children and families and statutory
heirs citywide.
5. To refrain from protecting treasonist officers of the courts from civil
liability for their unconstitutional acts, abuses, usages, and property thefts
citywide.
6. To refrain from Local and State government usages of Nevercommenced Tax Proceedings not commenced in state courts citywide.
7. To refrain from making sold void ex parte justice’s personal proposed
class-action default judgments of non-existent tax-liens foreclosures valid for
the City of New York in order to keep homesteads-commercial real estate
income properties stolen away from black homeowners since May IS. 1976
and continuing.
8. To refrain from considering and determining any other civil, criminal

11

or arbitration cases in any state court while Petitioner’s case remains closed;
Civil Rights Violations Civil Action No. 3:16-cv-961-MMH-MCR (FLMD,
Jacksonville District); Titled: Barbara J. Riley vs. Michael A. Cardozo, Alex
S. Avitabile, IngaM. O’Neale, Nancy T. Sunshine, Jay S. Markowitz and the
City of New York.
E. Opening the NYC New York State Supreme Courts System to all free
black citizens as is provided by the First, Fifth and Fourteenth Amendments
of the U.S. Constitution.
F. Remanding Petitioner’s statutorily commenced statutory civil action
Case No. 3:16-CV-961-MMH-MCR. back to the U.S. District Court For the
Florida Middle District, Jacksonville District, for Judgment, without U.S.
District Judge Marcia Morales Howard and without Senior US. District
Judge Harvey E. Schlesinger, and without any further frauds, sales, denials
or delays. Felder v. Casey. Owen v. City of Independence. The Judiciary Act
of 1789.
G. Issue a declaratory judgment that the usages of respondent as set forth
above are in violation of the personal rights and personal property rights of
black home owners dtywide in violation of the U.S. Constitution, Florida
Constitution, New York Constitution, Acts of UJS. Congress and Rulings of
the Supreme Court of the United States.
H. Issue a declaratory judgment that the Proposed Class-Action default
Judgment of non-existent Tax-Liens Foreclosures No. 51 of Brooklyn Kings

12

County Supreme Court Justice LARRY D. MARTIN of October 26, 2011,
filed/recorded under NYC Department of Finance, NYC Brooklyn Office of the
City Register, City Register File Number (CRFN): 2011000439903
Lien/CIoud default Judgment Filed/Recorded against Petitioner’s real estate
homestead-income property Brooklyn: Lot 0001: Block 1223. is null and
void on its face. Case never-commenced with the NYC County Clerk NANCY
T. SUNSHINE and no hearing, no jury trial, no Notice of Entry of the Void
Class-Action Default Judgment No. 51 never-served on the 33 black home
owners or their black tenants prior to mass civil rights wrongful gun point
Evictions in NYC Brooklyn, Kings County, New York. See. Petitioner’s
Mandamus/Prohibition Writ Appendix at Pages 8 and 9 to 11 for Docket
Sheets.
I. Granting Petitioner such alternative writ and additional relief as appears
to the Court to be equitable and just.
R<

submitted,

Dated: April20 . 2021
Jacksonville, Florida

**

ar]
'J.jRi , Petitioner
P.GrBbx'TJlB
Jacksonville, FL 32238
Phone: 904.316.3698
Non PLEA- Eee Paid
Verification of Petitioner
I, Barbara Riley, declare, under penalty of perjury the foregoing is true
and correct. Executed on the
day 0f April 2021. 28 U.S.C. § 1746.
J. Hi

13

